  LEGAL SERVICES CORPORATION


       BOARD OF DIRECTORS'
SEMI-ANNUAL REPORT TO THE CONGRESS




      Decisions, Final Actions, and Comments
        on the Oftice of Inspector General's
       Semi-Annual Report to the Congress


                     -
        April 1,1995 September 30,1995




                                               November 30,1995
                                       FORWARD

        I am pleased to transmit the report of the Legal Services Corporation ("LSC" or
"Corporation") regarding the Semiannual Report of LSC's Office of Inspector General ("OIG) for
the six-month period of April 1, 1995 through September 30, 1995.

       The Corporation's Board of Directors ("Board") recognizes the value of the Inspector
General fUnction and is committed to working with the Inspector General to achieve our goal of
providing high quality legaI assistance to the poor of our nation.




                                                  Douglas S. Eakeley, Chairman    I/
                                                  Legal Services Corporation




November 30,1995
                                           TABLE OF CONTENTS


Executive summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



         The Legal Services Corporation: An Overview . . . . . . . . . . . . . . . . . . . . . . . . . 2
         Grant Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
         LSC Management Initiatives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

General comments Regarding the OIG . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . - 4

Regulatory Review                .................................................. 5




         Audit Guide and Inspection Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                   Status of Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
                   Contract Service and Related Expense Payments Inspection Report . . . . 7
                   Audit Guide . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .7

TABLE
    1: Management Report on 01G Audit Reports Issued with
         Questioned Costs for the Six-Month Period Ending September 30. 1995                                        . . . . .8

TABLE
    2: Management Report on Audit Reports Issued During
         the Six-Month Period Ending September 30. 1995. With
         Recommendations That Funds Be Put to Better Use                              ..................... 9
                               ExEcunvE SUMMARY

        The Board of Directors values the support and assistance of its Office of Inspector
General ("OIG"). During this reporting period the Corporation and its OIG continued to
work together to assure 111implementation at the Corporation of both the letter and spirit
of the Inspector General Act and its amendments.

       During this reporting period, the Corporation continued its enforcement efforts by
conducting approximately 18 on-site compliance visits per month and began planning for the
enforcement of the new restrictions on the use of funds for the delivery of legal assistance
contained in pending appropriations legislation.

       The Board directed Corporation staff to 1) do all that is necessary to convert the
Corporation's gran-g       system to one of competitive bidding, and 2) develop for Board
consideration and adoption regulations on competitive bidding for grants,timekeeping by its
grantees and restrictions as to the representation of individuals in certain public housing
evictions.

      Corporation staff and the OIG joined in recommending to the Board the transfer to
the OIG of the responsibility for grantee audits and the establishment of audit policy. The
Board approved the transfer and also approved the application of Government Auditing
Standards and OMB Circular A-133 to future grantee audits. After the reporting period,
management began the process of developing a new Accounting Guidefor Recipients and
Auditors.
                                         BACKGROUND



The Legal Services Corporation: An Overview

       The Corporation is a private, non-profit corporation established in the District of
Columbia by the Legal Services Corporation Act of 1974, as amended ("LSC Act"),' to
provide financial support for legal assistance in non-criminal proceedings to persons unable
to afford legal services. Under the LSC Act, the Corporation is governed by an eleven-
member Board of Directors appointed by the President of the United States, by and with the
advice and consent of the Senate. The Board appoints the President of the Corporation, who
serves as the Corporation's chief executive officer, subject to general policies established by
the Board.

       The 1988 Amendments to the Inspector General Act of 1978 extended specific
provisions of the 1978 Act to LSC and required LSC to establish an OIG. Accordingly, such
an office was established by and for the Corporation, and the Inspector General reports to
and is under the general supervision of the Corporation's Board of Directors.

Grant Activities

        The Corporation funds 323 legal services programs, providing 28 1 basic field grants,
32 Native American grants, 45 migrant grants, 73 state support grants and 16 national
support grants.' In addition, the Corporation funds 10 supplemental field programs and 5
training centers, and provides 6 grants for computer assisted legal research. To carry out the
purposes of the LSC Act, Congress appropriated the Corporation $4 15-million for fiscal year
 1995, but $15-million of the fiscal year appropriation was rescinded by Pub. L. 104-6.

LSC Management Initiatives
       During the reporting period, the Corporation focused much of its energy on
implementation of a competitive system for the award of grants, including the drafting of a
proposed competition regulation and publication of same in the Federal Register for
comment. Management issued a request for proposals and, while awaiting enactment of FY
 1996 appropriations legislation, currently is in the process of reviewing applications for

         '42 U.S.C.   $5 2996 - 29961.
         Some programs receive more than one type of grant.
calendar year 1996. As to its existing grantees, the Corporation continued its enforcement
efforts by conducting approximately 18 compliance visits per month.

       Although the act appropriating funds to the Corporation for fiscal year 1996 has not
yet been enacted, the pending legislation contains new restrictions on the use of funds for the
delivery of legal assistance. During the reporting period, management began planning for
enforcement of these new restrictions.

        The IG proposed that the responsibility for grantee audits and the establishment of
audit policy be transferred to the OIG. Management studied the issue and endorsed the
transfer. Acting in concert, the OIG and management presented their recommendation for
the transfer to the Board, and the Board adopted it. Also recommended to and approved by
the Board was the adoption of Government Auditing Standards and OMB Circular A-133 as
applicable to future audits of grantees.

       More recently, and after the reporting period, management began the process of
replacing the accounting sections of the Corporation's Audit and Accounting Guide for
Recipients andAuditors with a new Accounting Guidefor Recipients and Auditors. The new
Accounting Guide will replace outdated rules with rules that reflect current Generally
Accepted Accounting Principles, such as those reflected in the Financial Accounting
Standards Board's Statements of Financial Accounting Standards Nos. 116 and 117. The
proposed Accounting Guide will be published in the Federal Register for comment and
adopted by the Board of Directors prior to being implemented.
              GENERAL COMMENTS REGARDING THE OFFICE
                               OF INSPECTOR GENERAL

IG ACT IMPLEMENTATION
       Access to Documents

        The Board and Corporation management strive to make available to the Inspector General
and his designee(s) all documents to which the IG Act grants the OIG access. During the reporting
period, Corporation management and the Inspector General considered the matter and reached an
uuderstmding with regard to the scope of OIG access to Corporation i n f o d o n and materials. The
Board will address the question in the near future and hopes to resolve the matter to everyone's
satisfaction within the next reporting period.

       Recognition in Regulations and Publications

      Publications: The Corporation issued an amendment to its Personnel Manual W              g the
Corporation's position against retaliation for employee complaints to the OIG.

        Regulations: The Board believes that the OIG has a role in responding to requests for
infomation made pursuant to the Freedom of Information Act. The Corporation published revisions
to the Corporation's FOIA r e w o n , which revisions, among other things, t r a m $ ' responsibility
for processing FOIA requests for OIG records to the OIG. Last fall, however, the Board voted to
withdraw the rule to allow for a still more comprehensive review and a complete overhaul of the
rule, as part of the Board's overall review of the Corporation's regulations. We plan to revisit the
FOIA regulation and hope to publish a h a l regulation within the next six months. In the interim,
we will continue using an informal internal procedure,pursuant to which the OIG responds to FOIA
requests for OIG documents.

       Responsibility for Grantee Audits

       During this reporting period, Corporation management and the OIG discussed the transfer
of responsibility for setting audit policy with respect to grantee financial statement audits and
responsibility for the review of these audits. The Board recently t r a n s f d these audit
responsibilities to the OIG and the OIG has advised that this eliminates any organizational
impairment in the area of grantee h c i a l statement audit policy.

         The OIG will now assume responsibiity for preparing a revised Corporation Audit Guide,
a draft of which was prepared by the OIG in consultation with Corporation management The new
Audit Guide, based on GovernmentAuditing Standards, will be published for public comment and
will be considered by the Board. The Audit Guide will include a compliance supplement, which will
identify financial-related regulatory requirements for compliance monitoring by the independent
auditors conducting the annual grantee financial statement audits. As it is a progmmmatic fimction,
Corporation management will be responsible for i d e n m g the applicable regulations for inclusion
in the compliance supplement. OIG will be responsible for developing suggested procedures for
auditor assessment of compliance.

       Terms of IG's Employment

        During the last reporting period, the Board, in response to the Inspector General's request,
agreed to rescind the Inspector General's employment contract. The Inspector General also
recommended that the Board put in place a mechanism linking the compensation of the Inspector
General to and awarding increases based on the compensation of the LSC President, the other
official at the Corporation who reports directly to the Board, and the Board adopted this
recommendation.
                                 PROGRAM INTEGRITY

AUDIT ACTIVITIES

Status of Findings and Recommendations

      Corporation management continues to work with the OIG in an effort to resolve the
recommendations remaining open fiom the Revenue Audit and the Performance Audit of Grantee
Monitoring.

Summary of Findings and Recommendations

       Annual Corporate Audit

       The Board appreciates the assistance of the OIG in the conduct of the Corporation's N 1994
financial statement audit.

       Quality Assurance Reviews

         The Board has no reason to doubt the accuracy ofthe OIG's account of its quality assurance
reviews, and' is committed to providing full cooperation and support to the OIG in its continued
efforts in this regard.

       Other Audit Activities

        Now that responsibility for audit policy goveming grantee financial statement audits has been
transferred to the OIG, the Board looks forward to the OIG's presentation of the new Audit Guide.
INVESTIGATIVEACTNITIES
        The Board supports OIG's investigative activities and is committed to providing assistance
and cooperation to these efforts. The information regarding investigative activity during the
reporting period demonstratesthe continued cooperationbetween OIG and other corporate &. For
example, the OIG issued a Management Advisory, outlining waste and abuse of Federal funds by
an LSC grantee and, based upon this advisory, management was able to respond to correct the
deficiencies.
                  LEGISLATIVE AND REGULATORY REVIEW
        The Corporation has continued its comphensive regulatory review. During this reporting
period, the Board's Operations and Regulations Committee, with the assistance and dedication of
Corporation staff, the OIG and interested parties, has made great progress in its regulatory review
efforts. The Board appreciates the work of all involved and is confident that the fine work will
continue unabated.

         As to the specific issue of right of access by the Corporation to confidential client
information in the files of its recipients, however, the OIG expresses disagreement with the
Corporation's interpretation of its right of accessto confidential client information, as implemented
in its proposed regulatory revisions.

        The basic difference between the interpretation contained in the proposed rules and that
advocated by the OIG centers on the impact of section 1006(b)(3) of the LSC Act on the scope of
LSC's entitlement to confidential information. This provision expressly applies to every provision
of the LSC Act and prohibits the Corporation fiom "interfer[ing] with any attorney in carrying out
                                             .
his professional responsibilities to his client ..or abrogat[ing] as to attorneys in propms assisted
under [the LSC Act] the authority of a State or otherjurisdiction to enforce standards of professional
responsibility generally applicable to attomeys in such jurisdiction." 42 U.S.C. 5 2996e(b)(3).

         In this provision, Congress recognized that the lawyer-client relationship is governed by a
set of rules that are enforced by authorities in each state. Further recognizing that a poor individual
should be afforded the same protections as any client in an attorney-client relationship, Congress
required the Corporation to defer to the detemhtions made by those authorities with respect to
issues governed by those rules.

         According to the OIG, any interpretation of section 1006@)(3) of the LSC Act which would
place a limit on LSC's access to client confidences would render supduous and without effect those
provisions in the LSC Act which seemingly grant the Corporation dettered access to information
except to the extent such information is subject to the attorney-client privilege. & LSC Act, $8
1008(a)& (b); 1009(d). The interpretationin the proposed rules, on the other hand, attempts to give
full effect to both section 1006@)(3) and the accessprovisions of the LSC Act. Thus, the proposed
rules would not require Corporation access to information in any jurisdiction in which local
authorities have determined that such information, although not subject to the attorney-client
privilege, must be held in confidence by attomeys under that jurisdiction's rules of professional
responsibility. The proposed rules attempt to give full effect to both section 1006(b)(3) and section
1009(d), while allowing responsible and effective oversight of LSC funds.
                               PROGRAM ASSESSMENT
       The Board looks forward to receiving the Inspector General's report on the "Potentialfor
Improving Legal Services Delivery Capacity Through Technology." The Corporation's goal is to
provide high quality legal assistance to the poor of our nation in the most effective and economical
manner. Especially in this time of scarce resources, any means by which we may improve our
capacity for meaningfid access to justice will be a welcome advancement.
                                               TABLE 1

              Management Report On Office of Inspector General Audits
                             With Disallowed Costs

                    For the Period October 1,1994 to March 31,1995

                                                      Number of   Number of   Disallowed
                                                      Reports     Recom.      Cost


A.   Audit reports with management decisions          0
     on which final action had not been taken
     by the beginning of this reporting period

B.   Audit reports on which management decisions      0
     were made during this reporting period
C.   Total audit reports pending final action         0
     during this reporting period. (Add Lines
     A and B)

D.   Audit reports on which final action was
     taken during thii reporting period: ,

     1.       Recoveries and Adjustments
              a.      Collections and Other Offsets
              b.      Better Use



     3.       Totals (1 +2)                           0

     4.       Final management action exceeding       0
              commitment amount

E.   Reports for which no final action has            0
     been taken by the end of this reporting
     period
                                            TABLE 2

              Management Report on Office of Inspector General Audits
               With Recommendations that Funds be Put to Better Use

                    For the Period October 1,1994 to March 31,1995


                                                    Number of   Number of   Better Use
                                                    Reports     Recom.      of Funds


A.   Audit reports with management decisions on     0
     which final action had not been taken by the
     beginning of this reporting period

B.   Audit reports on which management decisions    0
     were made during this reporting period

C.   Total audit reports pending W action           0
     during this reporting period. (Add L i
     A and B)

D.   Audit reports on which final action was        0
     taken during this reporting period:

     1.      Dollar value of recommendationsthat    0
             were actually completed

     2.      Dollar value of recommendations        0
             that management concluded should
             not or could not be implemented

     3.       Totals (1 + 2)

     4.       Final management actions
              exceeding commitment amount

E.   Reports for which no final action
     has been taken by the end of thii
     reportingperiod
